   August 17, 2005




Financial Management
Identification and Reporting of DoD
Erroneous Payments
(D-2005-100)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
GAO                   Government Accountability Office
OMB                   Office of Management and Budget
DJMS                  Defense Joint Military Pay System
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGI Nlb 22202-4704




                                                                          August 17,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                            (C0rnTROLLER)ICHIEF FINANCIAL OFFTCER
SUBJECT: Report on the Identification and Reporting ofPODErroneous Payments
         (Report No. D-2005-100)

      We are providing this repori for information and use. We considered
management comments on a draR of this report in preparing the final report.
       The Deputy Chief Financial Officer comments on the draft of this report
conformed to the requirements of DoD Directive 7650.3 and left no unresolved issues.
Therefore, no additional comments are required.
        We appreciate the courtesies extended 20 the staff. Questions should be directed
to Mr. James L. Komides or Mr.     Curt W. Malthouse at (6 14) 75 1- E 400. See Appendix B
for the repert distribution. The team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                      f o r Pa&tto.
                                                         9.m d
                                                            CPA
                                        Assistant Inspector General
                                       Defense Financial Auditing
                                                Service
               Department of Defense Office of Inspector General
Report No. D-2005-100                                                August 17, 2005
  (Project No. D2004-D000FJ-0118.000)

         Identification and Reporting of DoD Erroneous Payments

                                 Executive Summary

Who Should Read This Report and Why? DoD financial managers and contracting
officials responsible for identifying and reducing erroneous payments should read this
report. It discusses ways in which DoD can more accurately analyze and report
erroneous payments.

Background. The Office of Management and Budget requires Federal agencies to
complete annual reviews to determine whether programs and activities may be making
significant erroneous payments. It also requires DoD to report estimates of the annual
amount of erroneous payments made by programs and activities designated as susceptible
to making such payments, and to report in the DoD Performance and Accountability
Report on progress made in reducing them. For FY 2004, DoD reported in the annual
Performance and Accountability Report that none of its programs and activities exceeded
the Office of Management and Budget reporting thresholds for erroneous payments.

Results. In FY 2004, DoD improved its process for reviewing programs and activities
and identifying and reporting on those susceptible to making significant erroneous
payments. Using an improved data call, DoD estimated that there were approximately
$977.5 million in erroneous payments associated with its operations in FY 2004.
Additionally, DoD identified the military pay activity as being at high risk for erroneous
payments. However, additional improvements were needed. DoD did not complete its
preliminary estimates or identify the high risk areas until January 2005. As a result, the
amount of erroneous payments DoD reported in its FY 2004 Performance and
Accountability Report was understated, and DoD did not report the new high-risk area.
DoD needs to continue to improve the process of gathering and analyzing data to develop
an accurate baseline from which it can measure progress in reducing the likelihood of
erroneous payments. (See the Finding section of the report for the detailed
recommendations).

Management Comments and Audit Response. The Deputy Chief Financial Officer
concurred with the audit recommendations. She planned to issue guidance on estimating
improper payments early in each fiscal year and indicated DoD has taken action to use
sampling techniques to measure the dollar amount of improper payments. She planned to
explore the use of DoD improper payments survey data in post-payment reviews to
reduce the risk of pecuniary liability to accountable officials and certifying officers.
Additionally, the Deputy Chief Financial Officer believed the improper payment survey
data collected by DoD are a fair representation of actual improper payments. She stated
that although the amounts DoD reports are well below the Office of Management and
Budget criteria for reporting them as high risk, DoD recognizes the need for a
comprehensive, statistically sound methodology to estimate and baseline commercial
payments and it plans to report the lack of this methodology as a material weakness.


                                            i
The Chief Financial Officer (Health Affairs) provided unsolicited comments and he
disagreed with the report’s conclusions that the sample of medical claims his office
conducted was not valid. He indicated he did not include claims under $100 in his
sample because Government risk is not involved. He cited a study completed in
FY 2000. We disagree with the comments. The Health Affairs statistician who designed
the sample determined that the sample was not appropriate for estimating the total
amount of erroneous payments. In addition, Health Affairs operations have changed
since the FY 2000 study. For example, in FY 2003, Health Affairs began making
secondary payments on medical claims from the DoD Medicare Eligible Retiree Health
Care Fund. Health Affairs needs to ensure that all Medicare secondary payments are
included in samples because that area has been determined to be high risk by the Office
of Management and Budget.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                              i

Background                                                                    1

Objective                                                                     2

Finding
     DoD Erroneous Payments                                                   3

Appendixes
     A. Scope and Methodology                                                 11
          Management Control Program Review                                   11
          Prior Coverage                                                      12
     B. Report Distribution                                                   13

Management Comments
     Office of the Under Secretary of Defense (Comptroller)/Chief Financial
       Officer                                                                15
     Office of the Assistant Secretary of Defense (Health Affairs)            21
Background
    In FY 2002 the President sent to Congress an agenda focused on improving the
    management and performance of the Federal Government. One component of the
    President’s management agenda was an initiative to improve financial
    management by reducing erroneous payments. In May 2003, the Office of
    Management and Budget (OMB) issued memorandum M-03-13, “Improper
    Payments Information Act of 2002,” (OMB Memorandum M-03-13), that outlines
    how Federal agencies should reduce erroneous payments, including the following
    four steps.

       •   Review all programs and activities and identify those that are susceptible
           to significant erroneous payments.

       •   Statistically estimate the annual amount of erroneous payments for those
           programs and activities making significant erroneous payments.

       •   Implement a plan to reduce the incidence and amounts of erroneous
           payments.

       •   Report estimates of the annual amount of erroneous payments made by
           programs and activities and progress made in reducing them.

    The memorandum defines erroneous payments as any payment that should not
    have been made or that was made in an incorrect amount under statutory,
    contractual, administrative, or other legally applicable requirement. Erroneous
    payments include the following.

           •   overpayments;

           •   underpayments (including inappropriate denials of payment or
               service);
           •   payments to an ineligible recipient or for an ineligible service;

           •   duplicate payments;

           •   failure to reduce payments by applicable sales discounts, cash
               discounts, rebates, or other allowances; and

           •   payments for items not received.

    The memorandum requires agencies with more than 2.5 percent of annual
    payment amounts, as well as more than $10 million in annual erroneous
    payments, to estimate the annual amount of erroneous payments made by the
    agency’s programs and activities.




                                         1
Objective
    The audit objective was to determine whether DoD adequately reviewed all
    programs and activities it administered, and identified and reported those that may
    be susceptible to making significant erroneous payments. We also determined
    whether DoD adequately estimated the amount of erroneous payments and
    prepared accurate progress reports on actions to reduce them. See Appendix A
    for a discussion of the audit scope and methodology and prior audit coverage.




                                         2
                   DoD Erroneous Payments
                   In FY 2004 DoD improved its process for reviewing programs and
                   activities and identifying and reporting on those susceptible to making
                   significant erroneous payments; however, there is still room for
                   improvement. Using an improved data call, DoD estimated that there
                   were approximately $977.5 million in erroneous payments associated with
                   its operations in FY 2004. * DoD also added the military pay activity
                   group to its list of activities considered to be at high risk for making
                   erroneous payments. However, DoD did not complete its preliminary
                   estimates or identify the additional high-risk area until January 2005
                   because the Under Secretary of Defense (Comptroller)/Chief Financial
                   Officer (USD[C]/CFO) was not timely in disseminating guidance for
                   erroneous payment data collection. Further, the guidance did not
                   adequately address the use of statistical methods. Additional delays
                   resulted because the Defense Finance and Accounting Service (DFAS)
                   had not fully developed a standard method for gathering and analyzing
                   erroneous payment data. As a result, DoD did not report the military pay
                   activity as high risk in the 2004 Performance and Accountability Report,
                   and the amount of estimated erroneous payments it reported was
                   misstated. Further, DoD cannot effectively measure its progress in
                   reducing the incidence of erroneous payments without an accurate
                   baseline to measure against.


Timeliness of Guidance
           One of the primary reasons for the delay in determining the extent of erroneous
           payments in FY 2004 was the lack of timely guidance. The USD(C)/CFO did not
           issue policy on collecting information and reporting on DoD erroneous payments
           until October 2004.

           Specifically, on October 7, 2004, the USD(C)/CFO issued a policy memorandum
           to implement the annual review requirements of OMB Memorandum M-03-13.
           The memorandum instructs the Military Departments and other DoD agencies and
           organizations to assist DFAS in completing a survey to identify erroneous
           payments made in FY 2004. The memo followed step one of the OMB
           Memorandum M-03-13.

                   Review all programs and activities and identify those which are
                   susceptible to significant erroneous payments. Many agencies already
                   know which programs and activities are at the highest risk of erroneous
                   payments. Agencies shall institute a systematic method of reviewing
                   all programs and identifying those it believes are susceptible to
                   significant erroneous payments. For the purposes of this guidance,
                   significant erroneous payments are defined as annual erroneous

*
    The DoD universe of payments made by programs and activities totaled about $521.1 billion, so
    erroneous payments of $977.5 million equal about two-tenths of a percent of the total.

                                                     3
             payments in the program exceeding both 2.5% of program payments
             and $10 million. The agency shall maintain documentation to support
             this review and the results.

      The policy memorandum also requires the Military Departments, Defense
      agencies, and Defense activities to address payment areas within a program or
      activity that may have a greater risk of erroneous payments than the overall
      program or activity. The guidance requires narrative risk assessments that
      address the strength of internal control procedures in place to prevent improper
      payments, system weaknesses identified internally or by outside audit activities,
      and voluntary returns of overpayments by vendors.

      The sheer size of DoD prevented the timely collection of the data for the
      November 15, 2004, deadline for completing the FY 2004 Performance and
      Accountability Report. DoD needs to issue any new FY 2005 guidance more
      timely to ensure the policy is in place well before reporting deadlines.


Improved Identification and Reporting Process
      For 2004, DFAS used the guidance and performed risk assessments to determine
      whether DoD activities and programs were susceptible to erroneous payments
      under the OMB reporting thresholds. DoD had planned to complete the risk
      assessments by November 15, 2004, so that the information could be included in
      the FY 2004 Performance and Accountability Report. However, as late as
      January 2005, DFAS was still in the process of determining the full extent of its
      erroneous payments and had not assessed the amount of erroneous
      intra/intergovernmental payments.
      As shown in Table 1, the FY 2004 risk assessment identified $734 million more
      erroneous payments than had been reported in FY 2003 for seven activity groups.


                           Table 1. DoD Erroneous Payments
                                Risk Assessment Results

                                 FY 2003         FY 2003          FY 2004          FY 2004
                                Erroneous        Assessed        Erroneous         Assessed
    Program/Activity            Payments          Risk           Payments           Risk
  Military Pay                 $113,964,530      Moderate       $316,608,764        High
  Retired & Annuitant Pay        33,087,129       Low             66,003,097        Low
  Civilian Pay                    8,118,193       Low             24,061,011        Low
  Travel Pay                      3,350,788       Low             13,579,866       Moderate
  Health Care                    54,049,681       Low            100,194,997        Low
  Commercial Pay                 30,935,183       Low            456,597,027        Low
  Afloat & Deployed            Not Assessed                          497,427        Low
            Total              $243,505,504                     $977,542,189



                                             4
Use of Statistically Valid Methods
     Although it improved its method of estimating the amount of erroneous payments,
     DFAS did not apply valid sampling techniques to the extent necessary to estimate
     a complete baseline. In most of its major programs and activities, DFAS used
     statistical sampling to estimate the number of erroneous payments (attribute
     sampling), but not the dollar amounts (variable sampling). The following areas
     would benefit from the use of an improved sampling strategy that identifies dollar
     amounts.

     Military Pay. The DFAS estimate of the amount of erroneous payments for
     military pay increased from $113.9 million for FY 2003 to $316.6 million for
     FY 2004. However, DFAS used attribute sampling in past payment reviews, not
     variable sampling to derive estimates, and that resulted in an estimate that did not
     include the full extent of the FY 2004 payments that were processed in its military
     pay system, the Defense Joint Military Pay System (DJMS). DFAS recognized
     that internal control procedures over military pay were inadequate, and, as of
     April 2005, was still in the process of implementing post-payment audit
     procedures to estimate the dollar value of erroneous payments.

     In an effort to identify erroneous payments, the Office of Statistical Review,
     Military and Civilian Pay Services, DFAS Kansas City, Missouri, completed
     limited post-payment reviews of military pay transactions. The DFAS reviews
     identified calculation errors made by the DJMS system and detected some
     reporting errors caused by data input errors.

     The post-payment reviews designed by DFAS provided statistically valid
     estimates of the number, but not the dollar amount, of erroneous payments. As a
     result, the post-payment reviews did not provide a reliable means for estimating
     the dollar amount of errors. The reviews also fared poorly in detecting errors in
     intra/intergovernmental payments, such as when the wrong State or locality was
     provided taxes withheld from paychecks.
     Improving the adequacy of sampling will also aid certifying officials. According
     to DFAS Kansas City and DFAS Indianapolis officials, the post-payment reviews
     were not designed to satisfy the requirements of Financial Management
     Regulation volume 5, chapter 33, “Accountable Officials and Certifying
     Officers.” When properly designed and approved, use of valid samples for post-
     payment reviews can provide relief from pecuniary liability to accountable
     officials and certifying officers who unknowingly approve erroneous payments.

     DoD personnel acknowledged that the military pay activity group was at high risk
     for erroneous payments. One of the greatest risks is that DFAS may not detect all
     data input errors because they cannot readily access information that is put into
     the Military Department personnel systems. The information in these systems is
     used to compute military pay. The Marine Corps pay system is the only service
     application which can be easily accessed by DFAS. The lack of integration
     between DJMS and military pay systems was a long-standing problem identified
     by the Government Accountability Office in 1993.


                                          5
To improve the process, DFAS will need to complete a statistically valid estimate
for dollar amounts for FY 2005 in accordance with OMB guidance. In addition,
the USD(C)/CFO should design the post-payment reviews to provide relief from
pecuniary liability to accountable officials and certifying officers.

Retired and Annuitant Pay. OMB Circular A-11 requires DoD to use
statistically valid methods to estimate the amount of erroneous payments for the
DoD retirement benefit programs. DoD reported that it identified more erroneous
payments in retiree and annuitant pay in FY 2004 than in FY 2003, from
$33.1 million in FY 2003 to $66.0 million in FY 2004. However, as of
January 2005, DoD officials stated that DoD was still working on methods to
accurately statistically estimate the amount of erroneous payments on retirement
programs.

Civilian Pay. DFAS estimated that erroneous payments in civilian pay increased
from $8.1 million in FY 2003 to $24.1 million in FY 2004. However, DFAS did
not have processes in place to accurately estimate the amount of erroneous
payments on civilian payroll accounts. Specifically, DFAS did not use valid
statistical methods to estimate the dollar amount of erroneous payments, did not
review intra/intergovernmental payments for amounts withheld from paychecks to
identify erroneous payments, and did not complete an analysis of FY 2004
collections on civilian pay accounts to determine how many of the collections
were related to prior overpayments.

In an effort to identify erroneous payments that were similar to military pay, the
Office of Statistical Review, Military and Civilian Pay Services at DFAS Kansas
City completed limited post-payment reviews of civilian pay transactions. The
post-payment reviews were designed to provide statistically valid estimates of the
number of erroneous payments. According to DFAS Kansas City, the
post-payment reviews were not appropriate for estimating dollar amounts and
were not designed to provide relief from pecuniary liability to accountable
officials and certifying officers.

The following illustrates the additional scrutiny that is needed in the DFAS
review process to identify the extent of erroneous payments related to civilian
pay. DFAS processed $461 million in collections on civilian pay accounts during
FY 2004. DFAS did not review the collections to determine how many of the
collections were related to the recovery of prior overpayments. Collections are
highly indicative of overpayments and should be reviewed.
DoD concluded that the civilian pay activity group was at low risk for erroneous
payments and that a valid estimate of erroneous payments was not required.
However, intra/intergovernmental payments withheld from paychecks on civilian
pay were not reviewed and the $461 million in FY 2004 collections made for
civilian pay indicate that activities within the civilian pay group could have made
erroneous payments that exceeded OMB thresholds.

We believe DoD needs to require DFAS to use statistically valid methods to
establish a baseline of erroneous payments for civilian pay in accordance with
steps 2 though 4 of OMB Memorandum M-03-13. DoD should require methods
that provide relief from pecuniary liability to accountable officials and certifying

                                      6
officers. DFAS cannot show progress in reducing the amount of erroneous
payments on civilian pay until statistically valid methods are used to establish an
accurate baseline.

Travel Payments. The amount DFAS identified in FY 2003 as erroneous
payments related to travel payments was $3.4 million. In FY 2004 it identified
$13.6 million. For FY 2004, DoD rated the overall travel payments activity group
as being at moderate risk for erroneous payments. DFAS did not use valid
statistical methods to estimate the amount of erroneous payments related to travel
payments. The attribute sampling DFAS used was designed to estimate the
number of erroneous payments and not the dollar amount which could be
estimated using variables sampling. To improve FY 2005 reporting, DFAS will
need to estimate the amount of erroneous travel payments processed in the system
using statistically valid methods.

Commercial Payments. The amount DFAS Columbus reported as erroneous
payments on commercial payments was $30.9 million in FY 2003. In FY 2004 it
was $456.6 million. DFAS Columbus officials indicated that the $456.6 million
figure represented a compilation of queries of various payment systems. DFAS
Columbus believed the commercial and vendor pay activity group was at low risk
for erroneous payments because $456.6 million represented only two-tenths of
one percent of the $247.6 billion in FY 2004 payments.

Despite the increase in the reported amount for FY 2004, the $456.6 million in
erroneous payments was not reconcilable to $1.1 billion in potential FY 2004
erroneous payments DFAS Columbus identified in its management reports as
shown in Table 2.



                  Table 2. FY 2004 DFAS Management Reports
                                  (in millions)

   Type of Management Exception Report

   Interest Penalties on Late Payments                                   $      28.3
   Demands Issued                                                              137.9
   Underpayments                                                               406.4
   Overpayments                                                                112.6
   Refunds Received                                                            306.8
   Discounts Lost                                                                1.0
   Returned Funds                                                              109.4

      Total FY 2004 Potential Erroneous Payments                             $1,102.4


DFAS Columbus believed there was duplication in the data contained in the
management reports. As of February 2005, DFAS Columbus was developing
procedures to improve the baseline of FY 2005 potential erroneous commercial
and vendor payments. DFAS officials told us that it would be impractical to use
the statistical methods required by OMB Memorandum M-03-13 to estimate the

                                     7
     amount of erroneous payments on commercial and vendor payments because of
     the complexity of DoD contracts.

     We concluded that the low-risk rating for the commercial and vendor pay activity
     group was not supportable due to the significant amount of potential erroneous
     payments in the DFAS Columbus management reports and the lack of statistical
     procedures in place to identify erroneous payments. DoD required DFAS to
     determine whether payment areas within a program area were susceptible to
     erroneous payments; however, DFAS Columbus did not show these payment
     areas were at high risk for erroneous payments. We believe that the amount of
     potential erroneous payments shown in the management reports should cause
     DoD to report the commercial and vendor pay activity group as being at high risk
     for erroneous payments for FY 2005. If DoD believes the work needed to comply
     with the OMB requirements is too costly and complex, it needs to coordinate the
     methods it uses to estimate erroneous payments with OMB, and request a waiver
     from the requirements.

     Military Health Benefits. The Assistant Secretary of Defense (Health Affairs)
     did not provide statistically valid estimates of the FY 2004 amount of erroneous
     payments made on health benefits. The Tricare Management Activity did use
     statistical samples designed to test contract compliance, and estimated that
     erroneous health benefit payments increased from $54.0 million for FY 2003 to
     $100.2 million for FY 2004. However, these procedures did not result in a
     statistically valid estimate.

     In FY 2003 the Tricare statistician reported to Tricare management that the
     statistical methods used to test for contract compliance were not appropriate to
     estimate dollar amounts of erroneous payments because of timing issues and
     because large amounts of information were not included. He stated that different
     methods would be needed to accurately estimate dollar amounts. However, the
     same methodology was used again to estimate FY 2004 erroneous payments.
     Therefore, the estimated amounts do not represent a statistically valid baseline of
     erroneous payments.

     OMB determined that the Military Health benefit activity group was susceptible
     to erroneous payments and it required the use of the OMB sampling formula
     (contained in step 2 of OMB Memorandum M-03-13) to estimate the amount of
     the erroneous payments. However, DoD officials stated that OMB verbally gave
     DoD approval to use the existing samples to estimate erroneous payments for
     FY 2004. We believe DoD needs to use statistically valid methods to establish a
     valid baseline of erroneous payments in the area of military health benefits for
     FY 2005.


Establishment of Accurate Baseline
     DoD cannot demonstrate progress toward reducing the occurrence of erroneous
     payments unless it issues policy early in the fiscal year and establishes an
     accurate baseline of erroneous payments. During FY 2004, DFAS improved
     methods to establish a valid baseline of DoD erroneous payments. However, to

                                          8
    effectively use existing resources to reduce erroneous payments, DoD needs to
    ensure that the methods used by DFAS to identify them are statistically valid and
    provide relief from pecuniary liability to accountable officials and certifying
    officers. The reduction of erroneous payments is a part of the President’s
    Management Agenda and the USD(C)/CFO needs to take aggressive action to
    identify and accurately inventory erroneous payments so that it can demonstrate
    progress in reducing the occurrence of erroneous payments in DoD.


Management Comments on the Finding and Audit Response
    Management Comments. The Deputy Chief Financial Officer indicated that the
    Defense Travel System was not at high risk for erroneous payments as reported in
    the draft report because an erroneous supporting schedule was provided to the
    auditors.

    Audit Response. We revised the finding to eliminate the information on the
    reporting of the Defense Travel System as a high-risk area.

    Management Comments. The Chief Financial Officer (Health Affairs) provided
    unsolicited comments and he disagreed with the report’s conclusions that the
    sample of medical claims his office conducted was not valid. He indicated he did
    not include claims under $100 in his sample because Government risk is not
    involved. He cited a study completed in FY 2000.

    Audit Response. We disagree with the comments from the Chief Financial
    Officer (Health Affairs). The Health Affairs statistician who designed the sample
    determined that the sample was not appropriate for estimating the total amount of
    erroneous payments. In addition, Health Affairs operations have changed since
    the FY 2000 study. For example, in FY 2003, Health Affairs began making
    secondary payments on medical claims paid from the DoD Medicare Eligible
    Retiree Health Care Fund. Health Affairs needs to ensure that all Medicare
    secondary payments are included in samples.


Recommendations and Management Comments
    We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer:

           1. Issue policy early in the fiscal year on the use of valid statistical
    methods to estimate erroneous payments. Specifically, those sampling
    techniques should focus on estimating the dollar amount of erroneous
    payments instead of the number. The policy should ensure that post-
    payment reviews support erroneous payment reporting and provide relief
    from pecuniary liability to accountable officials and certifying officers. The
    policy should include a process to obtain waivers from the requirements of
    the Office of Management and Budget if the work is too costly and complex.


                                        9
Management Comments. The Deputy Chief Financial Officer concurred and
stated DoD will use sampling techniques that focus on estimating the dollar
amount of erroneous payments instead of the number; the Defense Finance and
Accounting Service has already taken action and revised its methodology
accordingly. She also stated that the use of erroneous payment data will be
explored as the source of post-payment reviews to provide relief from pecuniary
liability to accountable officials and certifying officers as DoD estimating
techniques improve. She stated that guidance for the FY 2006 erroneous payment
survey will be issued in October 2005.

       2. Report in the Performance and Accountability Report that the
commercial and vendor pay activity group is at high risk for erroneous
payments due to the high volume of erroneous payments and the lack of
consistent procedures to identify erroneous payments.

Management Comments. The Deputy Chief Financial Officer partially
concurred with Recommendation 2. She stated that the Defense Finance and
Accounting Service would report a material weakness related to the lack of a
statistically valid method of estimating erroneous payments for commercial
payments in the FY 2005 Performance and Accountability Report. She stated that
DFAS will develop a process for estimating erroneous commercial payments that
will provide reasonable assurance that it represents the actual amount of such
payments. Additionally, she stated that when accurate estimates are developed,
DoD will determine whether commercial payments should be identified as a
high-risk area.




                                  10
Appendix A. Scope and Methodology
    We assessed whether DoD complied with the requirements of the “Improper
    Payments Information Act of 2002” (Public Law No. 107-300) and
    OMB memorandum M-03-13, May 21, 2003. We obtained DoD FY 2003 and FY
    2004 survey information that was compiled by DFAS on payments and erroneous
    payments. We analyzed the survey information to determine whether DFAS
    identified an accurate inventory of total DoD payments. We also analyzed the
    payment information to determine whether DFAS identified all erroneous
    payments as defined by OMB guidance. We determined whether DoD had a
    program to reduce erroneous payments.We performed this audit from April 2004
    through April 2005 in accordance with generally accepted government auditing
    standards.

    Use of Computer-Processed Data. We reviewed summary payment information
    compiled by DFAS in performance reports and management studies. We
    compared the payment information contained in the reports and studies to
    amounts reported as payment information for budgetary accounts presented in the
    FY 2003 and FY 2004 DoD financial statements and budgetary reports. We also
    determined whether DFAS included information from relevant performance
    reports and studies in its compilation of erroneous payment information. We
    determined whether DFAS used valid statistical methods in compiling the
    erroneous payment information. We did not review the reliability of data used to
    produce the summary information in the management reports and studies.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office (GAO) has identified several high-risk areas in DoD. This
    report provides coverage of the contract payment and financial management high-
    risk areas.

    Use of Technical Assistance. The Quantitative Methods Division of the Office
    of the Deputy Inspector General for Auditing reviewed the methodology used by
    DFAS to estimate the amounts of FY 2003 and 2004 erroneous payments.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.




                                       11
    Scope of the Review of the Management Control Program. The management
    control program was not an announced audit objective. However, since the
    reporting of erroneous payments is a part of the President’s Management Agenda,
    we determined whether DoD reported a material weakness related to the
    identification and reporting of erroneous payments.

    Adequacy of Management Controls. Management did not have controls in
    place to ensure that a statistically valid baseline was identified for erroneous
    payments. Therefore, we consider the identification and reporting of erroneous
    payments as a material weakness. Recommendation 1. will establish
    post-payment reviews to estimate the volume of erroneous payments and provide
    relief from pecuniary liability to accountable officers and certifying officers.
    Recommendations 1. and 2. will provide needed controls over the identification
    and reporting process. We will give a copy of the report to the management
    control official at DFAS Headquarters.

    Adequacy of Management’s Self-Evaluation. DoD did not properly consider
    the materiality of results from prior audit reports and internal management studies
    that indicated that significant problems existed related to the identification and
    reporting of erroneous payments. For example, for FY 2004, DoD believed
    problems reported by the GAO on military pay (see prior coverage below) were
    immaterial. As a result, DoD did not establish an assessable unit for erroneous
    payments.


Prior Coverage
    During the past 5 years GAO issued two reports on military pay issues and two
    reports on erroneous payments. Unrestricted GAO reports can be accessed over
    the Internet at www.gao.gov.

    GAO Report No. GAO-04-911, “Army Reserve Soldiers Mobilized to Active
    Duty Experienced Significant Pay Problems,” August 20, 2004
    GAO Report No. GAO-04-89, “Army National Guard Personnel Mobilized to
    Active Duty Experienced Significant Pay Problems,” November 13, 2003

    GAO Report No. GAO-02-749, “Financial Management: Coordinated Approach
    Needed to Address the Government’s Improper Payments Problems,”
    August 9, 2002

    GAO Report No. GAO-02-69G, “Strategies to Manage Improper Payments:
    Learning From Public and Private Sector Organizations,” October 1, 2001




                                        12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          14
Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments




                       15
16
Final Report
 Reference




Finding
changed p.2
and results
changed
page 7.




               17
18
19
Office of the Assistant Secretary of Defense
(Health Affairs) Comments




                        21
22
23
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service prepared this report. Personnel of
the Department of Defense Office of Inspector General who contributed to the
report are listed below.

Paul J. Granetto
James L. Kornides
Col. Richard L. Norman
Curt W. Malthouse
Barry N. Harle
John R. Williams
Carlisa M. Miles
Carmen J. Malone
Benjamin M. Howison
Lusk F.Penn
Catherine Bird
Meredith H. Johnson
